                U.S. GENERAL SERVICES ADMINISTRATION
                Office of Inspector General



September 26, 2011

MEMORANDUM FOR:                Steven J. Kempf
                               ~~issioner, Federal Acquisition Service (Q)

FROM:                        ~a.~~
                             Assistant Inspector General for Auditing (JA)

SUBJECT:                       Major Issues from Fiscal Year 2010
                               Multiple Award Schedule Preaward Audits

To assist GSA in managing its Schedules Program, we are providing this rollup
memorandum on three recurring issues we identified while conducting our fiscal year
(FY) 2010 preaward contract audits.

    •   The majority of vendors we reviewed provided information that was not current,
        accurate, and/or complete to support their proposed prices.

    •   Nearly half of the vendors we reviewed had minimal or no non-federal commercial
        customers, making it impossible to use non-governmental commercial sales as a
        basis for determining price reasonableness under the GSA Schedules Program. 1

    •   Over a quarter of the vendors we reviewed supplied labor that did not meet the
        minimum educational or experience qualifications required by the contracts.

While we audited a limited number of the contracts in GSA's Schedules Program, the
high rates at which these three issues recur suggest that similar concerns would be
uncovered in a comprehensive, program-wide audit. Therefore, we are providing you
this information so that GSA can decide how to best address them. Below we discuss
each of these issues in more detail.


Background

Under GSA's Schedules Program, the                    Federal Acquisition Service (FAS) establishes
long-term government-wide contracts                    with commercial vendors. Through these
contracts, over 11 million commercial                 products and services are made available to
customer agencies at volume discount                  pricing. In FY 2010, GSA Schedules Program
sales exceeded $38 billion.


1The terms "commercial sales" and "commercial marketplace" as used throughout this memorandum
refer to non-governmental sales and customers.




                              Fede,,' Recy,ling Prog,em   -0
                            1800 F Street, NW, Washington, DC 20405-0002
                                                               Printed 00 Recyded Pepe,
Per Federal Acquisition Regulation 8.404, the prices of products and services available
for purchase from the Schedules Program are considered to be fair and reasonable.
Thus, GSA contracting officers (COs) are tasked with evaluating price reasonableness
by performing steps such as the following:

•   Ensuring that the proposed prices are comparable to prices offered to commercial
    customers;

•   Conducting other analyses, such as evaluating cost build-up2 in the absence of
    comparable commercial sales; and

•   Requiring that the vendor reduce the prices offered to the Government if the prices
    granted to the basis of award customer are reduced during the contract period.

The GSA Office of Inspector General (OIG) conducts preaward audits to assist COs in
negotiating MAS contracts. These audits provide COs with information regarding
whether vendor-supplied commercial sales practices (CSP) information is current,
accurate, and complete prior to awarding the contract or exercising an option to extend
the contract.

During FY 2010, the OIG performed 49 Multiple Award Schedule (MAS) preaward
contract audits. The subject contracts had estimated sales of over $8 billion for their
pending 5-year option periods. As a result of these audits, we informed GSA COs of
numerous contract deficiencies. We also recommended price and discount adjustments
that, if realized, would allow for over $423 million in cost avoidances for customer
agencies and, ultimately, the taxpayer. Additionally, we recommended over $3 million in
recoverable overcharges related to misclassified labor.


Commercial Sales Practices Disclosures Are Not Current. Accurate. and/or
Complete

The majority of vendors we reviewed provided COs with flawed CSP information. This
adversely affects both (1) the initial price reasonableness determination for the
proposed contract prices and (2) the Government's discount structure/pricing
relationship with the basis of award customer over the life of the contract.




2 Conducting a cost build-up analysis of a service contract generally involves verifying the accuracy of
proposed labor rates by obtaining additional information such as payroll stubs, financial statements, and
expense reports. A multi-tiered process is used to compute a fully-loaded labor rate for each labor
category, which includes verifying base labor rates and determining the allocability of other direct and
indirect costs.

3 Under the Price Reductions clause, the vendor's discount relationship with the basis of award customer
or category of customers is generally used as the basis for the discounts given to the Government. If the
discounts given to these customers increase, the discounts given to the Government also increase.


                                                   2
The preferred method COs use to determine price reasonableness is to compare
proposed prices to those the vendors charge in the commercial marketplace. The
commercial marketplace should compel vendors to offer reasonable prices in order to
remain competitive. Accordingly, the General Services Administration Acquisition
Manual Part 515.408(2) requires vendors to submit their CSP as part of their offer. The
CSP should contain information demonstrating that the proposed discount structure or
pricing is reasonable in relation to the vendor's commercial discounts/pricing. As part of
the esp, the vendor must provide detailed information on those customers or
categories of customers that receive pricing equal to or better than that offered to the
Government.

We audited 24 option proposals that were based on commercial pricing (i.e., cost
buildup information was not analyzed). In 20 cases (83 percent), the CSPs reflected
non-current, inaccurate, and/or incomplete pricing information. We found that some
vendors granted other customers more favorable discounts or terms than were
disclosed on their CSPs. In one instance, a vendor disclosed a standard discount of 0
percent; however, we determined that the vendor routinely granted "non-standard"
discounts. In fact, we sampled $59.5 million of transactions and 99 percent of the time,
customers received a discount greater than 0 percent. Situations similar to this
adversely affect MAS contract pricing.

If the greater discounts and terms identified through our preaward audits in these 20
contracts could be negotiated, the Government would realize overall cost avoidances of
$116.5 million during the contracts' 5-year option periods. These savings represent the
difference between the offered discounts and those we calculated using current,
accurate, and complete CSP information.

We believe FAS should take action to ensure that GSA COs appropriately and
consistently evaluate discount information. This evaluation should include consideration
of the difference between "standard" and "non-standard" discounts, the frequency and
range of discounts, and the impact of rebates.

No Commercial Sales

Our preaward audits also disclosed that many MAS vendors have minimal or no
commercial sales to non-federal customers. For 21 of the 49 vendors audited (43
percent), commercial customers accounted for 5 percent or less of the vendor's total
sales. In 12 instances, the vendor had no commercial sales. This includes both vendors
who sell items with no commercial application and vendors who sell commercial items
solely to the Government. For example, in one FY 2010 audit, a vendor disclosed that
its Schedule offerings "do not by definition have a commercial application" and its
proposed rates "were developed solely for the use on task orders under our Schedule."
In another instance, a large professional services vendor with more than $1 billion in
estimated contract period sales had no commercial sales for any of the labor categories
offered on its GSA Schedule.




                                            3
GSA's stated goal is "to obtain the offeror's best price (the best price given to the most
favored customer)." If there are no commercial sales to non-federal customers or
federal agencies under a non-MAS contract, this goal cannot be met. Although the FAR
provides for other methods of price analysis (e.g., comparison to prices offered by
others, market analysis, vendor cost buildup data) these approaches will not achieve
GSA's stated goal of obtaining the best price given to the most favored customer.

In addition, if there are no rate comparisons with commercial sales, it may not be
possible to identify a basis of award customer; therefore, the Government has no
foundation for implementing price reductions. Without a basis of award customer, GSA
Schedule customers cannot be assured that they will be aware of and benefit from
pricing changes in the marketplace. This is particularly true in the information
technology market, where costs tend to decrease dramatically as technology ages. As a
vendor's costs decline over the contract period, its profit margin will increase, but
without price reductions, the Government will be unable to share in these savings.
Allowing vendors to remain on GSA Schedule with minimal or no commercial sales to
non-MAS customers creates the potential for Schedules Program users to pay
significantly higher prices than warranted.

If FAS continues to allow vendors such as these to be on Schedule, FAS should take
appropriate steps to ensure that GSA Schedule prices meet the stated goal of being the
vendor's best price and that there is an effective mechanism for price reductions.

Unqualified Labor

Finally, our preaward audits disclosed that GSA customers were overcharged
approximately $3 million for professional services which did not meet the minimum
educational and/or experience qualifications proposed by the vendor and required in
their contracts.

MAS vendors that provide services must submit labor category descriptions and their
associated wage rates as part of their offers. These descriptions include the minimum
qualifications (e.g., level of education and experience) for each proposed labor
category. This ensures that customer agencies are provided individuals who have the
skill sets required to meet the agencies' needs. The billable rates for each category are
based on these qualifications.

As part of our audits of service contracts, we evaluate employee resumes to determine
whether the employees possess the requisite qualifications for their billable labor
categories. In the 37 services contracts we audited, we found 10 instances in which
vendors charged customer agencies for labor that did not meet the minimum labor
category qualifications called for by the contract. In one audit, 75 percent of the
employees in our sample did not fully meet the qualifications for the labor category
under which the employee was billed. In another case, approximately 24 percent of the
personnel assigned to GSA task orders did not meet the standards stipulated by the
contract. In fact, this same vendor was cited in a FY 2009 GSA OIG audit as providing



                                            4
unqualified labor on a different MAS contract and the Defense Contract Audit Agency
reported similar findings in a FY 2007 review. In these situations, we are not
challenging the labor rates themselves; however, we are questioning whether customer
agencies paid for higher levels of service than they received.

We believe that COs may not realize the extent or potential ramifications of this
problem. We suggest that FAS take appropriate action to ensure that vendors are
providing GSA and ordering agencies with individuals who have the labor qualifications
for which the agencies are paying.

Conclusion

The Schedules Program, with over $38 billion in FY 2010 sales, is the largest
interagency contracting vehicle. The goal of the Schedules Program is to use
commercial terms and conditions and leverage the Government's volume buying to
obtain the best possible prices and terms for customers and taxpayers, which is
consistent with the goal of reduced federal spending. We believe that addressing the
issues raised in this memorandum will help improve the effectiveness of the Schedules
Program.




                                          5
